No.
dn The
Supreme Court of the United States

 

 

Paul Sorum, Marvin Nelson, Michael Coachman, Charles Tuttle and
Lisa Marie Omlid, each on behalf of themselves and all other
similarly situated tax payers of the State of North Dakota,
Petitioners,

vs.

The State of North Dakota, The Board of University and School Lands of the
State of North Dakota, The North Dakota Industrial Commission,
The Hon. Douglas Burgum, in his official capacity as Governor of the State of
North Dakota, and the Hon. Wayne Stenehjem, in his official capacity as
Attorney General of North Dakota,
Respondents.

ON PETITION FOR A WRIT OF CERTIORARI
TO THE SUPREME COURT OF NORTH DAKOTA

PETITION FOR A WRIT OF CERTIORARI
RULE 33.1(h) CERTIFICATE OF WORD COUNT

As preparer of the document above, I hereby certify that the Petition for a Writ
of Certiorari, Docket no. , complies with Rule 33.1 in that it contains the
ee typeface in the proper size. I further certify that the document contains

words total, including the parts of the document that are exempted by
Supreme Court Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executedon _ (2/ , 2020.

Stephen M. West
Bachman Legal Printing

 

  

 

12) 339-9518 or 1-800-715-3582
